                                            Testimony
Before the Committee on Transportation and Infrastructure,
House of Representatives



             Opportunities for Amtrak to Build
               on Its Initiatives to Improve
               Efficiency and Effectiveness


                            Statement of Ted Alves
                               Inspector General
                   National Railroad Passenger Corporation



                               Thursday, September 20, 2012

                                       9:30 a.m. EDT



            Not Releasable until 9:30 a.m. Thursday, September 20, 2012

                                      OIG-T-2012-022
                                                                                            1


Good Morning Chairman Mica, Ranking Member Rahall, and Members of the
Committee:

Thank you for the opportunity to discuss how improvements in the efficiency and
effectiveness of Amtrak’s operations and service can lead to financial benefits and help
reduce Amtrak’s reliance on federal subsidies. The company received $562 million and
$466 million from the federal government for operations in Fiscal Years (FY) 2011 and
2012, respectively. The company also received $922 million and $952 million from the
federal government for general capital and debt service in FYs 2011 and 2012,
respectively.

Over the past couple of years, Amtrak has taken important steps to set a foundation for
improving its operational efficiency and effectiveness. At the same time, Amtrak has
opportunities to do more to improve its bottom line while meeting the expectations of
Congress and the American traveling public.

My testimony today will discuss three areas:

1.     Initiatives Amtrak has underway to improve the efficiency and effectiveness of its
       operations and service.

2.     Opportunities we have identified based on our recent work where Amtrak can
       build on those initiatives to reduce federal subsidies.

3.     Future work we plan to accomplish to identify additional opportunities for Amtrak
       to become more efficient and effective.


INITIATIVES TO IMPROVE THE EFFICIENCY AND
EFFECTIVENESS OF OPERATIONS AND SERVICE
Today, Amtrak is more focused than before on improving the efficiency and
effectiveness of its operations and service. It has in the last year issued a strategic plan
with specific goals, key metrics, and targets to guide the company’s efforts to improve
its performance, including achieving organizational excellence and improving financial
performance.1 It is also taking action to hold people accountable for results. We are
supportive of these actions and encourage the company to sustain its efforts in these
areas.



1   Amtrak Strategic Plan, FY 2011–FY 2015, September 30, 2011.
                                                                                           2


Central to Amtrak’s initiatives to become more efficient and effective is its strategic plan
for FYs 2011 through 2015. This plan communicates Amtrak management’s vision for
the company, along with strategies and tactics to achieve that vision.

Within its strategic plan, Amtrak established five goals to drive performance across the
company: safety and security, customer focus, mobility and connectivity, environment
and energy, and financial and organizational excellence. To accomplish these goals,
Amtrak established a series of metrics and 5-year performance targets for each goal. It
also established seven corporate-level strategies, such as the establishment of business
lines to better manage financial performance and respond to the wants, needs, and
expectations of various customer groups.

Since the plan was issued, Amtrak has undertaken a series of initiatives to begin
realigning operations to help position the company to accomplish its goals. These
initiatives include

   integrating operating departments within geographic regions to align them with the
   strategic plan’s new business lines and assigning accountability for achieving
   results, to include improving profit-and-loss results;

   strengthening human capital management to address existing deficiencies, including
   hiring a chief human capital officer; and

   developing a strategic management system to guide the execution of the strategic
   plan and mitigate risks that could affect successful execution.

While these important initiatives show Amtrak’s commitment to make changes that will
reduce federal subsidies, the company is still in the early stages of its change process.
To be successful, Amtrak will need to sustain these initiatives over the long term, and
implement them effectively.


OPPORTUNITIES TO BUILD ON INITIATIVES
The company’s ongoing initiatives are important and needed steps for improving its
operational efficiencies and effectiveness. Our recent work shows that sustaining and
effectively implementing these initiatives has the potential to significantly reduce
Amtrak’s reliance on federal support. Using a risk management approach to improve
management controls is also needed to help Amtrak focus on improving financial
results. I have selected examples from our recently issued investigative, audit, and
evaluation reports to illustrate those opportunities:
                                                                                                              3


    Overtime Fraud and Abuse. We recently reported that multiple employees
    defrauded Amtrak by being paid for regular and overtime hours not worked.2 We
    also identified other serious abuses, including misuse and potential theft of
    property, misuse of computer resources, and a pervasive lack of supervision by
    responsible union and management officials. Specifically, we found that first‐level
    management and union supervisors provided inadequate supervision and oversight
    and did not prevent the fraud or abuse that occurred. While we were not able to
    conclusively quantify the full amount lost to fraud in this investigation, it is likely
    that additional employees were paid for hours that were not worked; losses could
    total over $100,000. In response to our report, Amtrak management has acted
    quickly and aggressively to discipline those employees who committed fraud,
    misused company resources, or failed in their supervisory responsibilities.

    Given the breakdown in management controls, and concerns about excessive
    overtime paid to employees (overtime paid at Amtrak totaled over $200 million in
    Calendar Year 2011), we have audit work underway reviewing company-wide
    management controls over employees’ use of overtime.

    Food and Beverage Service. In 2011 and 2012, we reported that the company could
    improve management controls over its on-board food and beverage service.3 In our
    2011 report, we estimated that $4 million to $7 million of Amtrak’s on-board food
    and beverage sales could be at risk of theft because of inadequate management
    controls. Further, in our 2012 report, we identified two areas in which food and
    beverage program management could be improved—accountability for program
    results and program-wide planning. Responding to our recommendations, Amtrak
    established a loss-prevention unit and has plans to implement an action plan to
    address weaknesses and gaps in the on-board food and beverage service. Amtrak
    also established a chief of customer service position within the Transportation
    Department, which will have accountability for improving Amtrak’s food and
    beverage service program. Also, on August 6, 2012, Amtrak’s President and CEO
    indicated that a test of cashless sales will be conducted. To improve program
    planning, we recommended that Amtrak develop a 5-year plan for reducing food
    and beverage direct operating losses. Amtrak concurred with this recommendation
    and stated that a plan will be developed within 6 months of filling the chief of
    customer service position.

2 Fraud: Overtime Fraud and Abuse by Amtrak’s Mid-Atlantic Communications and Signals Department
Employees (OIG-I-2012-018, September 5, 2012).
3 Food and Beverage Service: Further Actions Needed to Address Revenue Losses Due to Control Weaknesses and

Gaps (Report No. E-11-03, June 23, 2011) and Food and Beverage Service: Initiatives to Help Reduce Direct
Operating Losses Can Be Enhanced by Overall Plan (OIG‐A‐2012‐020, September 7, 2012).
                                                                                                           4


    Our ongoing food and beverage work is focusing on ways to further mitigate the
    food and beverage direct operating losses of $84.6 million in FY 2011. We are
    examining best practices used by other public- and private-sector entities that
    provide food and beverage services to passengers, such as foreign passenger
    railroads, cruise lines, and airlines.

    Mechanical Maintenance. In May 2012, we reported that Amtrak had made
    significant progress in improving its mechanical maintenance processes and
    procedures for the Acela fleet.4 These improvements increased the reliability and
    availability of the Acela fleet and allowed Amtrak to deploy two additional
    trainsets, generating over $50 million in additional revenue. However, similar
    improvements have not been achieved for Amtrak’s conventional fleets. Improving
    the reliability and availability of the conventional fleets to a comparable level as
    Acela would result in significant financial benefit. We recommended that Amtrak
    apply the Acela maintenance practices to the conventional fleets. Amtrak
    management agreed with our recommendation and also acknowledged that
    opportunities exist for further progress.

    On-time-Performance Incentives. Over time, we have identified more than $83
    million in overpayments to host railroads.5 These overpayments occurred because
    host railroad invoices were not consistently calculated in accordance with the
    operating agreements between Amtrak and the respective host railroad, or were
    unsupported. These errors went undetected and the invoices were paid because
    Amtrak did not have in place an adequate invoice-review process. In a series of
    reports identifying overpayments, we made several recommendations to improve
    Amtrak’s invoice-review process. Over the last 2 years, Amtrak has established an
    invoice-review process that should help avoid the practices that resulted in past
    overpayments, thereby reducing the payments that Amtrak makes to host railroads.

An underlying cause of the deficiencies identified in these reports is the absence of, or a
breakdown in, management controls. A sound system of management controls
encompasses policies, processes, people, and technology, and serves the needs of all
stakeholders by directing and controlling activities with good business savvy,
objectivity, accountability, and integrity. For too many programs at Amtrak, sound
control systems do not exist; we believe that this is a systemic issue that needs to be
strategically addressed on a company-wide basis.



4 Mechanical Maintenance: Improved Practices Have Significantly Enhanced Acela Equipment Performance and
Could Benefit Performance of Equipment Company-wide (OIG-E-2012-008, May 21, 2012).
5 Amtrak Invoice Review: Undetected Errors Resulted in Overpayments (OIG-A-2012-019, September 5, 2012).
                                                                                                         5


In March 2012, we reported that Amtrak in general lacks an organization-wide system
of management controls that provides reasonable assurance that operations are carried
out in an efficient and effective manner. That report also found that Amtrak does not
have a formal, coordinated, and systematic enterprise-wide framework to identify,
analyze, and manage risk.6 A risk management framework provides a mechanism to
identify and deal with any risk, but focuses on risks that could prevent a company from
accomplishing its mission and goals. We recommended that Amtrak ultimately develop
and implement a risk management framework for the entire company, but given the
weak management control environment, begin by focusing on its strategic goal to
improve financial performance.

In commenting on our report, the Chairman of the Board of Directors and the President
and CEO stated that it is imperative that the Board discuss our recommendations with
an answer to the time, resources, and priority needed to make a commitment. They said
that once the Board has had an opportunity to understand the commitment this will
take, guidance will be provided to management, and the company will provide the OIG
with more detailed information about Amtrak’s plan to implement enterprise risk
management. We look forward to receiving the Board’s response and will continue to
monitor the status of the company’s plan.


FUTURE WORK WILL FOCUS ON ADDITIONAL
OPPORTUNITIES TO IMPROVE EFFICIENCY AND
EFFECTIVENESS
As I mentioned, Amtrak needs to continue to build on its operational improvement
initiatives. In that context, we will continue to provide reporting that is intended to
identify opportunities for operational improvements and financial benefits. Some of the
key issues we plan to address in FY 2013 include the following:

    Auditing Amtrak’s processes for managing its capital programs. The objective of
    this audit will be to determine the adequacy of Amtrak’s capital program
    management practices; this will include policies and procedures for managing its
    capital programs in the areas of estimating, oversight, and project closeout. Effective
    management for capital projects is critical, given that Amtrak spent almost $1.7
    billion in FY 2011 for capital programs.7


6 Amtrak Corporate Governance: Implementing a Risk Management Framework Is Essential to Achieving Amtrak’s
Strategic Goals (OIG-A-2012-007, March 30, 2012).
7 Figure includes federal capital subsidies, American Recovery and Reinvestment Act of 2009 funds,

Department of Homeland Security grants, and funds from various state and local entities.
                                                                                             6


   Completing a series of management control-focused audits in the acquisition and
   procurement area. This work is designed to identify opportunities to reduce losses
   in areas such as duplicate payments, overpayments, excessive purchases of
   inventory, and purchasing the wrong inventory. We will accomplish this work using
   data analytics tools and methodologies that we have developed during this fiscal
   year.

   Reviewing the adequacy of contract management for two multiple-year equipment
   procurements valued together at over $800 million. We will compare Amtrak’s
   management and contracting oversight practices with industry best practices, with a
   view toward controlling costs and achieving desired, timely results.

   Reviewing the adequacy of a multiple-year information technology contract valued
   at over $565 million, according to a senior contracting official. This review will also
   use best practices analysis to determine whether the contract is structured to ensure
   that projects are delivered on time, within budget, and achieving their intended
   benefits.

   Evaluating Amtrak’s current fleet allocation and utilization practices and comparing
   them with best practices at other transportation companies. Amtrak carries about
   82,000 riders per day on more than 300 trains, utilizing an active fleet of over 1,500
   cars and more than 400 locomotives. To capture additional demand on trains with
   high ridership, Amtrak is proposing new fleet purchases. If Amtrak could better
   allocate its existing fleet to match its demand, it could potentially capture the
   additional ridership and revenue without the need for new fleet purchases.

                                        _ _ _ _ _

In conclusion, the keys to improving the efficiency and effectiveness of Amtrak’s
operations and service are (1) sustaining and fully implementing its ongoing strategic
initiatives and (2) continuing to develop and implement new initiatives, including a risk
management framework to continuously improve the efficiency and effectiveness of its
operations. Such a sustained focus should, in turn, reduce the amount of federal funds
that Amtrak needs. In that regard, my office will continue to identify opportunities to
sustain those efforts, follow up on the company’s plans for implementing an enterprise
risk management framework, and identify new improvement opportunities.

Mr. Chairman, in closing, I thank the Committee for its support of the Amtrak OIG.
This concludes my testimony, and I am prepared to answer any questions that you or
other members of the Committee may have.
                                                                                       7



           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission        The Amtrak OIG’s mission is to

                                conduct and supervise independent and objective
                                audits, inspections, evaluations, and investigations
                                relating to Amtrak programs and operations;
                                promote economy, effectiveness, and efficiency
                                within Amtrak;
                                prevent and detect fraud, waste, and abuse in
                                Amtrak's programs and operations; and
                                review and make recommendations regarding
                                existing and proposed legislation and regulations
                                relating to Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                            Web:      www.amtrakoig.gov/hotline
                            Phone:    800-468-5469

Congressional and           E. Bret Coulson, Senior Director
Public Affairs              Congressional and Public Affairs

                            Mail:     Amtrak OIG
                                      10 G Street, N.E., 3W-300
                                      Washington, DC 20002
                            Phone:    202-906-4134
                            Email:    bret.coulson@amtrakoig.gov
